         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program – 2010




OAS-M-11-01                            October 2010
                                 Department of Energy
                                    Washington, DC 20585
                                        October 25, 2010


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
               COMMISSION



FROM:                    Rickey R. Hass
                         Deputy Inspector General for Audit Services
                         Office of Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Federal
                         Energy Regulatory Commission's Unclassified Cyber Security
                         Program – 2010"

BACKGROUND

The Federal Energy Regulatory Commission (Commission) is responsible for regulating and
overseeing the interstate transmission of natural gas, oil and electricity in addition to numerous
other natural gas and hydroelectric projects. The regulations set forth by the Commission are
designed to meet the economic, environmental and safety interests of the Nation. The
Commission gathers and analyzes massive amounts of data regarding the energy markets, using a
wide range of information technology (IT) resources. As with other Federal agencies or private
institutions, the threat of a breach or loss of IT assets or information they contain continues to
increase as cyber attacks become more sophisticated and prevalent. To protect against such
threats, the Commission expected to spend over $3.5 million during Fiscal Year (FY) 2010 to
secure its IT assets.

The Federal Information Security Management Act of 2002 (FISMA) provides direction to
agencies on the management and oversight of information security risks. Under FISMA's
requirements, the Office of Inspector General conducts an annual independent evaluation to
determine if the Commission's unclassified cyber security program is properly aligned with
FISMA. This report presents the results of our evaluation for FY 2010.

RESULTS OF EVALUATION

The Commission had taken actions to significantly improve its cyber security posture and
mitigate risks associated with each of the four weaknesses we identified during our FY 2009
evaluation. Testing during our current evaluation, however, revealed that additional action is
needed to improve protection of information systems and data. Specifically, we found that
security patches needed to resolve known vulnerabilities discovered during regularly scheduled
scans were not applied to all workstations in a timely manner. In addition, even though officials
had established an automated mechanism for tracking all known vulnerabilities, only ten percent
of the identified "high risk" vulnerabilities were actually being tracked.
                                                 2


The problems we identified with the Commission's unclassified cyber security program were
due, in part, to the less than fully effective implementation of policies and procedures.
Specifically, contrary to established Commission policies, officials failed to formally accept the
risks associated with not addressing known software vulnerabilities. As such, the risk to the
agency's information systems and data remained higher than necessary.

Since the completion of the FY 2009 evaluation, the Commission had made significant progress
in the enhancement of its unclassified cyber security program. For example, officials had taken
action to address each of the weaknesses we identified in the prior year related to account
modification and monitoring, network account management, and protection of sensitive
information. In addition, the Commission enhanced its plan of action and milestones database to
include more specificity to help manage the cyber security program. These actions are positive;
however, additional effort is needed to help strengthen the protection of the Commission's
information systems and data. As such, we have made a recommendation that, if fully
implemented, should help the Commission further improve its cyber security posture.

Our evaluation also revealed an issue related to maintenance of the Commission's IT inventory
that is more fully discussed in Appendix 1.

Due to security considerations, information on specific vulnerabilities has been omitted from this
report. However, management officials have been provided with detailed information regarding
identified vulnerabilities, and in certain instances, initiated or completed corrective action.

MANAGEMENT REACTION

Management concurred with the report's recommendation and disclosed that it had initiated
actions to address issues identified in our report. Management's comments are included in their
entirety in Appendix 4.

Attachment

cc:    Deputy Secretary
       Executive Director, Federal Energy Regulatory Commission
       Chief of Staff
EVALUATION REPORT ON THE FEDERAL ENERGY
REGULATORY COMMISSION'S UNCLASSIFIED CYBER
SECURITY PROGRAM – 2010

TABLE OF
CONTENTS


Commission's Unclassified Cyber Security Program

Details of Finding ................................................................................................................1

Recommendation and Comments ........................................................................................3


Appendices

1.    Other Matters for Consideration...................................................................................4

2.    Objective, Scope, and Methodology ............................................................................5

3.    Related Reports ............................................................................................................7

4.    Management Comments ...............................................................................................8
The Federal Energy Regulatory Commission's Unclassified Cyber
Security Program – 2010

Program               The Federal Energy Regulatory Commission (Commission)
Improvements          continued to make progress in enhancing its unclassified cyber
                      security program and addressing previously identified cyber
                      security issues. Specifically, we noted that corrective actions
                      had been taken to address each of the four weaknesses
                      identified during the Fiscal Year (FY) 2009 review. In
                      particular, the Commission:

                             Had taken action to remediate previously identified
                             access control weaknesses in the areas of account
                             modification monitoring and network account
                             management;

                             Enhanced its policies and procedures related to
                             protection of sensitive information and ensured that
                             sensitive information was encrypted when in transit;
                             and,

                             Made improvements to its plan of action and milestones
                             database containing weaknesses identified during
                             security control testing, to include increased specificity
                             to help manage the cyber security program.

Risk Management and   Despite improvements in the management of its unclassified
Security Controls     cyber security program, additional action is needed to further
                      reduce the risk of compromise to the Commission's
                      information systems and data. In particular, we identified
                      weaknesses in the area of vulnerability management.

                                        Vulnerability Management

                      While the Commission had identified various vulnerabilities
                      during the performance of regularly scheduled scans of
                      networks, workstations and web applications, officials had not
                      ensured that all workstations were patched in a timely manner.
                      Specifically, our performance testing identified 7 commercial
                      off-the-shelf (COTS) software products utilized by the
                      Commission that contained more than 600 vulnerabilities on 28
                      workstations. Of the vulnerabilities identified, we noted that
                      445 (73 percent) were rated "high risk" by the National
                      Vulnerability Database sponsored by the Department of
                      Homeland Security's National Cyber Security Division/US-
                      CERT. In addition, 59 of the "high risk" vulnerabilities were
                      more than 2 years old. The vulnerabilities were primarily
                      associated with third-party productivity and internet

Page 1                                                             Details of Finding
                        applications. Officials noted that they had initiated installation
                        of version upgrades to certain software products that could
                        eliminate many of the identified vulnerabilities. In addition,
                        our testing did not reveal any actual exploits of the
                        vulnerabilities identified.

                        Furthermore, even though the Commission had established the
                        Vulnerability Tracking Tool (VTT) to track scanning-related
                        weaknesses identified as part of its continuous monitoring
                        program, all known vulnerabilities were not included in the
                        application. Specifically, only 43 of 445 (10 percent) "high
                        risk" vulnerabilities identified during our performance testing
                        were tracked in the VTT. In addition, a number of the
                        vulnerabilities identified were input into the VTT only after we
                        brought them to management's attention. We did note that one
                        item included in the VTT related to a specific application that
                        included various individual vulnerabilities. While we could
                        not confirm how many vulnerabilities this item covered, it is
                        likely that the percentage of weaknesses being tracked is
                        actually higher. The table below summarizes the number of
                        vulnerabilities identified and tracked in the VTT.

                                         Total         High Risk                Tracked
                         Application Vulnerabilities Vulnerabilities            in VTT
                          COTS - 1        110              93                      13
                          COTS - 2        100              86                      12
                          COTS - 3         58              47                       8
                          COTS - 4         53              46                      10
                          COTS - 5        159              93                       0
                          COTS - 6         37              25                       0
                          COTS - 7         92              55                       0
                           Total          609             445                      43

                        Tracking all known vulnerabilities in the VTT could help
                        ensure that they receive the appropriate level of management
                        attention.

Cyber Security Policy   The problems we identified with the Commission's unclassified
Implementation          cyber security program were due, in part, to a less than fully
                        effective implementation of policies and procedures. In
                        particular, contrary to established Commission policies related
                        to vulnerability tracking and risk acceptance, we identified that
                        officials had not formally accepted the risks associated with not
                        addressing known software vulnerabilities. Specifically, cyber
                        security officials stated that they had accepted the risks
                        associated with vulnerabilities identified during our review


Page 2                                                                Details of Finding
                     and, therefore, did not need to track the weaknesses. However,
                     they were unable to provide documentation to support this
                     assertion. Officials also noted that not all workstations could
                     be patched because the software was no longer supported by
                     the manufacturer. Per the Commission's Vulnerability
                     Management Program Standard Operating Procedure,
                     completion of a waiver was required in situations where these
                     risks were being accepted. In addition, as noted by the
                     National Institute of Standards and Technology, establishing an
                     appropriate mechanism for tracking known security
                     weaknesses can aid in ensuring that they are effectively
                     remediated in a timely manner. In preliminary comments on
                     our audit findings, officials noted that they were aware of the
                     need to better document accepted risks and agreed to take
                     necessary corrective actions.

Risk to Commission   While the Commission made progress in improving its cyber
Systems and          security posture over the past year, the risk to the agency's
Information          information systems and data remained higher than necessary.
                     Specifically, failure to correct identified "high risk"
                     weaknesses in a timely manner could increase the risk of
                     exploitation of known security weaknesses, thereby
                     compromising the Commission's systems. Without
                     improvements in the implementation of vulnerability
                     management policies and procedures, management's ability to
                     adequately track all known security weaknesses could hinder
                     timely remediation efforts.

RECOMMENDATION       To correct the weaknesses identified in this report and improve
                     the effectiveness of the Commission's cyber security program,
                     we recommend that the Executive Director, Federal Energy
                     Regulatory Commission, take action to ensure that procedures
                     related to vulnerability management are fully implemented in a
                     timely manner, to include documenting the acceptance of risk,
                     as appropriate.

MANAGEMENT           Management concurred with the report's recommendation and
REACTION             commented that it had initiated actions to address weaknesses
                     identified during our evaluation. In particular, management
                     commented that the Commission was in the process of
                     reviewing and revising its VTT and remediating the
                     vulnerabilities identified during our review.

AUDITOR COMMENTS     Management's comments were responsive to our
                     recommendation. Management's comments are included in
                     their entirety in Appendix 4.



Page 3                                         Recommendation and Comments
Appendix 1

                      OTHER MATTERS FOR CONSIDERATION

In addition to the weaknesses discussed in this report related to the Federal Energy
Regulatory Commission's (Commission) unclassified cyber security program, we identified a
separate area for consideration. Specifically, we noted that the Commission's information
technology (IT) hardware inventory was not accurate or complete. For instance, we found
that 11 items sampled had been excessed, but still remained on the inventory listing in the
Sunflower system. In some instances, these items remained in the system for up to two years
after being sent to the General Services Administration for reuse. We also identified an
instance where the Commission had not included all servers within the Sunflower system.
Rather, officials only tracked the casing that contained the servers. Furthermore, we
identified one instance where a laptop had been incorrectly categorized as general hardware
within Sunflower.

These issues occurred because the Commission had not adhered to its established procedures
for inventory management. Specifically, the Commission's Property Management Standard
Operating Procedures required that the asset management system be updated within one
business day of property being transferred. However, as noted above, we identified
inventory that still remained in the system even though it had been removed from the site
approximately 2 years prior to our review. In addition, while Commission representatives
stated that an annual inventory of all hardware had been conducted as a compensating control
to offset the lack of a complete IT listing, these controls did not ensure that officials would be
able to effectively identify whether inventory had been lost or stolen.

SUGGESTION FOR IMPROVEMENT

To correct the weaknesses identified, we suggest that the Executive Director, Federal Energy
Regulatory Commission, take action, as appropriate to ensure that the Commission's Property
Management procedures are fully implemented, to include timely reporting of inventory
actions.




Page 4                                                       Other Matters for Consideration
Appendix 2

OBJECTIVE     To determine whether the Federal Energy Regulatory
              Commission's (Commission) unclassified cyber security
              program adequately protected data and information systems.

SCOPE         The audit was performed between June 2010 and September
              2010, at the Commission's Headquarters in Washington, DC.
              Specifically, we performed an assessment of the Commission's
              unclassified cyber security program. The evaluation included a
              review of general and application controls in areas such as
              certification and accreditation, security configuration
              management, incident response and reporting, and plans of
              action and milestones. Our work did not include a
              determination of whether vulnerabilities found were actually
              exploited and used to circumvent existing controls.

METHODOLOGY   To accomplish our objective, we:

                       Reviewed Federal laws and regulations related to
                       controls over information technology (IT) security
                       such as the Federal Information Security
                       Management Act of 2002, Office of Management and
                       Budget Memoranda, and National Institute of
                       Standards and Technology standards and guidance;

                       Reviewed the Commission's overall cyber security
                       program, including policies, procedures and practices;

                       Held discussions with officials from the Commission
                       and reviewed relevant documentation;

                       Evaluated the Commission in conjunction with its
                       annual audit of the Financial Statements, utilizing
                       work performed by KPMG LLP (KPMG), the Office
                       of Inspector General's (OIG) contract auditor. OIG
                       and KPMG work included analysis and testing of
                       general and application controls for the network and
                       systems and review of the network configuration;
                       and,

                       Reviewed prior reports issued by the OIG and the
                       Government Accountability Office.

              We conducted this audit in accordance with generally accepted
              Government auditing standards. Those standards require that
              we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and


Page 5                                Objective, Scope, and Methodology
Appendix 2 (continued)

                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings
                    and conclusions based on our audit objectives. Accordingly,
                    we assessed significant internal controls and the Commission's
                    implementation of the Government Performance and Results
                    Act of 1993 and determined that it had established performance
                    measures for its information and cyber security program.
                    Because our evaluation was limited, it would not have
                    necessarily disclosed all internal control deficiencies that may
                    have existed at the time of our evaluation. We did not solely
                    rely on computer-processed data to satisfy our objective.
                    However, computer assisted audit tools were used to perform
                    probes of various networks and drives. We validated the
                    results of the scans by confirming the weaknesses disclosed
                    with responsible on-site personnel and performed other
                    procedures to satisfy ourselves as to the reliability and
                    competence of the data produced by the tests. In addition, we
                    confirmed the validity of other data, when appropriate, by
                    reviewing supporting source documents.

                    An exit conference was waived by Commission officials.




Page 6                                      Objective, Scope, and Methodology
Appendix 3

                                 RELATED REPORTS

Office of Inspector General Reports

      The Federal Energy Regulatory Commission's Unclassified Cyber Security Program -
      2009 (DOE/IG-0830, October 2009). The Federal Energy Regulatory Commission
      (Commission) had taken steps to improve its cyber security program based on the
      deficiencies identified during the Fiscal Year 2008 review. However, additional
      actions were necessary to help ensure the Commission's network, systems and data
      are adequately protected against increasingly sophisticated cyber security attacks.
      These problems occurred, at least in part, because the Commission had not developed
      policies and procedures to address all Federal requirements pertaining to information
      security. In addition, the audit team discovered that officials had not always
      effectively implemented existing policy and/or corrected previously observed
      weaknesses. It was also noted that the Commission's plan of action and milestones
      process for addressing cyber security weaknesses did not include all information
      necessary to ensure effectiveness. Absent improvement, the risk to the agency's
      information systems and data remains higher than necessary.

      The Federal Energy Regulatory Commission's Unclassified Cyber Security Program -
      2008 (DOE/IG-0802, September 2008). The Commission had taken action to
      improve cyber security practices and implemented protective measures designed to
      defend its networks against malicious attackers and other external threats. Our
      evaluation, however, disclosed that additional actions are needed to reduce the risk of
      compromise to the Commission's business information systems and data to an
      acceptable level. These problems existed because the Commission had not fully
      developed or implemented all current Federal cyber security requirements. In
      response to our inquiries, management stated that due to the recent departure of a
      large number of information technology staff, insufficient attention had been given to
      ensuring that existing policies and procedures were implemented. We made several
      recommendations designed to assist in achieving this goal.

      The Federal Energy Regulatory Commission's Cyber Security Program - 2007
      (OAS-L-07-23, September 2007). Overall, we continued to note improvements in the
      Commission's cyber security program. During our evaluation, we found that a major
      financial processing system had underwent a significant software upgrade in 2005,
      but the system had not been recertified and reaccredited for operation. Because of the
      nature of the software upgrade, significant changes occurred both in the manner in
      which data was processed and how it was transmitted – a situation that could have
      potentially introduced security vulnerabilities or increased the risk associated with
      system upgrade. Commission officials provided evidence that they started a
      comprehensive recertification process in January 2007 and had completed a number
      of important parts of the effort. Since corrective actions were well underway, we did
      not make any recommendations. However, we suggested that the Executive Director
      ensure that the ongoing risk assessment and re-certification of the system fully
      consider the risk posed by the software upgrade and modify system controls, if
      necessary.


Page 7                                                                    Related Reports
Appendix 4




Page 8       Management Comments
                                                             IG Report No. OAS-M-11-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
